<html>
<title> - OVERSIGHT: FBI HEADQUARTERS CONSOLIDATION PROJECT</title>
<body><pre>[Senate Hearing 115-856]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-856

                      OVERSIGHT: FBI HEADQUARTERS 
                         CONSOLIDATION PROJECT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                           FEBRUARY 28, 2018
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  

        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-663PDF                  WASHINGTON : 2020           
        
        
        

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 28, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................    13
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    14
Van Hollen, Hon. Chris, U.S. Senator from the State of Maryland..    15

                               WITNESSES

Mathews, Dan, Commissioner, GSA Public Building Service..........    16
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Barrasso.........................................    26
        Senator Cardin...........................................    27
        Senator Van Hollen.......................................    31
        Senator Whitehouse.......................................    37
Haley, Richard L. II, Assistant Director, FBI Finance Division...    39
    Prepared statement...........................................    41

                          ADDITIONAL MATERIAL

Trump Upends His Own Infrastructure Plan With PPP Comments to 
  Democrats, by Jeff Davis, Eno Transportation Weekly, Week of 
  September 25, 2017.............................................   265
Trump endorses 25-cent gas tax hike, lawmakers say, by Lauren 
  Gardner et al., Politico, February 14, 2018....................   268
Here's How the U.S. Chamber Would Rebuild and Modernize America's 
  Infrastructure, U.S. Chamber of Commerce, accessed March 15, 
  2018...........................................................   272

 
           OVERSIGHT: FBI HEADQUARTERS CONSOLIDATION PROJECT

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Fischer, Ernst, 
Cardin, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this meeting to 
order.
    Today's oversight hearing will focus on the status of the 
FBI Headquarters Consolidation Project. We will hear testimony 
from the General Services Administration and the Federal Bureau 
of Investigation.
    Last August this Committee held a hearing on the search for 
a new FBI headquarters. The hearing was in response to GSA's 
abrupt cancellation of their plan--years in the making--to 
consolidate FBI headquarters at a new location in either 
Maryland or Virginia. The plan involved trading the crumbling 
Hoover Building to partially offset the costs of new 
construction.
    Senators weren't notified of the cancellation in advanced, 
and first heard of the decision through the press. This isn't 
what accountable government looks like. Nonetheless, the 
hearing ended on a positive note.
    Both the GSA and FBI committed to return to Congress with a 
workable solution for the FBI headquarters. The plan was to do 
that by November 30th. A week before that deadline, GSA and FBI 
indicated they would require an additional 60 days to develop 
and submit a report detailing a workable solution.
    In response to this request, Ranking Member Carper and I 
sent a letter emphasizing the importance of receiving a 
thorough plan from GSA. We granted the extension request to 
ensure GSA and FBI had ample time to consider differing 
financing options for the project. The new deadline was set for 
January 29th of this year, and we expected it to be met. The 
deadline came and went, and the GSA didn't provide us with the 
report.
    To make matters worse, GSA's ultimate recommendation 
contained within the report was leaked to the press 2 full 
weeks before the report was delivered to this Committee. As was 
the case last summer, Members of Congress should have been 
notified well in advance of the media.
    On February 12th the Committee finally received GSA's 
overdue report. The report contains a revised plan which 
recommends the Hoover Building be demolished to make way for 
the construction of a new headquarters facility in the same 
location.
    Instead of consolidating all 10,600 FBI headquarters staff 
into one campus location, the revised plan would move 2,300 
headquarters staff to three new facilities around the country. 
The plan estimates that the total cost of the new project at 
$3.3 billion, and it indicates the Administration will be 
seeking $2.175 billion in appropriations to fully fund 
demolishing and rebuilding the Hoover Building.
    While this appropriations request is more than double the 
$800 million previously requested by GSA, the report estimates 
that the new plan's overall cost will be lower than that of the 
old plan.
    The revised plan is a significant departure from previous 
plans considered and put forward by GSA and FBI. The revised 
plan eliminates many of the FBI's security requirements: it 
scraps the concept of a consolidated campus, it abandons the 
need for a remote truck inspection facility, and it discards 
the requirement of a detached central utility plan.
    Under the old plan, these features were considered critical 
for FBI's security. Now they are gone, so the question is what 
happened.
    It has been nearly 7 years since this Committee first 
directed GSA to follow through on this project. Yet the need 
for a new FBI headquarters remains as pressing as ever. The men 
and women of the FBI who work around the clock to keep America 
safe require a modern and a functioning office building that 
meets their needs.
    It is past time for the GSA to implement a workable plan, 
one that can hold up to Committee scrutiny and deliver the long 
overdue replacement for the aging Hoover Building. The members 
of this Committee want what is best for the American taxpayers 
and what is best for the hardworking men and women of the FBI.
    The Federal Government has already spent over $20 million 
in 13 years planning for an FBI headquarters. The revised plan 
starts the process from scratch. I hope that today's testimony 
will clarify how this plan will succeed where previous efforts 
have failed.
    I would now like to recognize Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I want to welcome our witnesses today, and I want to thank 
our colleagues, especially from Maryland, for urging us to have 
this hearing, and commend you, Mr. Chairman, for holding it.
    Our friends from GSA, our friends from the FBI, welcome. We 
thank you and your colleagues for the work that you do, 
especially at the FBI. Thank you very much.
    The hearing today, as the Chairman has said, is a follow up 
to our hearing in August of last year, a hearing we held on the 
cancellation of the procurement for a consolidated FBI 
headquarters. At the conclusion of that hearing the witnesses 
from GSA committed to providing our Committee with a workable 
solution to meet the FBI's needs for a new headquarters.
    After an extension the Committee received the promised 
report on February the 12th, and the report--as the Chairman 
has suggested--is a complete reversal of a plan for the FBI 
that was more than a decade in the making. It abandons previous 
efforts to consolidate FBI's operations away from the Bureau's 
current location at the J. Edgar Hoover Building. Frankly, this 
about face is concerning, maybe even troubling.
    All members of this Committee should be concerned about 
this new plan for the FBI; not just the members of the 
Committee, but Senators who are not on this Committee. It 
raises serious questions from the impacts on national security 
to the excess cost of this decision may likely impose on our 
Federal Government at a time when our budget deficit this year, 
as my colleagues know, is going to exceed $1 trillion just in 1 
year. The kind of money that we are talking about here is 
alarming.
    I hope that today's hearing can answer some of these 
questions and alleviate members' concerns, including my own.
    What is not in question today is the fact that the FBI 
needs a new headquarters. The Chairman has already said that. 
We agree. The current facility is in dangerous disrepair, which 
not only affects the day to day operations of the FBI, but also 
has significant national security implications.
    One of the main motivations to consolidate the FBI into one 
location was to ensure that FBI headquarters maintains 
necessary security standards. There are also efficiencies to be 
gained by reducing departmental fragmentation.
    This new plan, however, appears to do just the opposite. 
Instead of moving people with common tasks closer together, 
this report recommends moving approximately 20 percent of the 
current headquarters staff to locations around the country.
    Congress has already appropriated hundreds of millions of 
dollars for this project, as you know, including the millions 
of dollars that have already been spent on the previous 
procurement.
    As stewards of the Federal purse, we should be working to 
save taxpayer dollars, make our Government more efficient, 
including with respect to property management. We see examples 
where consolidation is working or has the potential of working. 
One is the development of a consolidated Department of Homeland 
Security campus on the grounds of the former St. Elizabeth's 
Hospital in Southeast Washington, DC.
    Personally, I was initially skeptical of that project. 
However, after working with the previous Administration, and 
through oversight conducted as Chairman and Ranking Member of 
the Homeland Security and Governmental Affairs Committee, I am 
now convinced that it is in the best interest to have a 
consolidated campus in the Capital region.
    At the end of the day, though, we need to do what is right 
for the hardworking men and women of the FBI, and do so in a 
manner that makes the most sense for our national security, 
while also being good stewards of our taxpayer dollars. How we 
achieve those goals is by ensuring that we have all the 
information we need to make an informed decision.
    As you know, Mr. Chairman, we have had some previous 
challenges in obtaining information from the GSA that is 
necessary to carry out our oversight responsibilities. For over 
a year I have been requesting documents from GSA about the 
Trump Hotel. Specifically, I have been asking about GSA's 
questionable determination that the Trump Hotel lease somehow 
does not violate the ethics requirements that prohibit an 
elected official from being a party to a Federal lease to 
financially benefit from that lease.
    Sadly, the Administration's response to my questions, to 
our questions to date has not been satisfactory. Of the almost 
12,000 pages worth of documents the GSA provided last fall, 
only 22 pages--22 pages, one-tenth of 1 percent--were written 
within the relevant timeframe and directly pertain to the 
question we raised about the lease. Fewer than one-tenth of 1 
percent of those 12,000 pages actually spoke to the question 
that we had raised. Not a single one of those 22 pages contains 
the analysis that I was seeking. Think about that.
    In contrast, there are hundreds of pages about the location 
of a clock, about the location of Starbucks in the hotel, about 
the maintenance of smoke detectors. Really?
    Moreover, GSA told me it was withholding information 
relating to some of my specific requests. For example, GSA 
would not tell me whether the Trump Hotel buys Trump wine or 
other Trump products, the sales of which would clearly benefit 
President Trump financially. This is unacceptable.
    I would ask unanimous consent to submit portions of the GSA 
response to my letter into the record, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. I would also like to express my dismay 
about the information we received with respect to the FBI 
project that we are discussing today.
    The Committee learned of both the cancellation of the 
procurement and the release of this new plan from the press. I 
am very disappointed that we continue to find out about 
developments on this project in this manner. That is no way to 
do business. No way to do business.
    As we move forward, it is my hope that GSA and FBI will be 
more forthcoming with our Committee and members of our 
Committee so that we can conduct our oversight in an effective 
and productive manner.
    Let me just say there used to be a TV show. Mr. Chairman, 
you and I probably used to watch it as a kid. This was before 
these ladies were born. But the FBI--and this guy named Jack 
Webb was an FBI agent, and he would make calls on doing an 
investigation, and he would say to whoever answered the door, 
Ma'am, just the facts; we just want the facts.
    Well, that is pretty much what we are interested in today, 
just the facts. And we want them from the GSA and certainly 
from the FBI.
    I look forward to your testimony. Look forward to working 
with our colleagues, especially the ones from Maryland, the Mar 
of Delmarva, to see if we can't get to the truth. If we know 
the truth, we will not make a mistake.
    Thank you so much.
    And I will just say I am going to apologize to our 
witnesses. Simultaneous to this hearing is a markup that is 
going on in one of my other committees. I will be right back as 
soon as that is over. Thank you. So bear with me.
    Senator Barrasso. Thank you.
    Since both the States of Maryland and West Virginia are 
involved in this, I would invite, first, Senator Capito to make 
an opening statement, and then the Senators from Maryland, if 
you so choose.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. And I am going to 
be going to the Billy Graham event, so I apologize for the 
quickness. But thank you for granting me this privilege.
    With consideration for my colleagues from Maryland, we may 
have a bit of a different view on how this could roll out.
    And I would like to say welcome to Mr. Mathews, who we 
served together when I was over in Transportation and 
Infrastructure on the House side, so it is nice to see you.
    Just briefly, in the revised plan, there is a plan, if 
consolidation occurs downtown--and Mr. Haley, you refer to this 
in your remarks--the CJIS Center in Clarksburg, where I just 
was on Friday, would have several hundred jobs moving into West 
Virginia. That would be an important development for me, 
obviously, as that facility continues to grow, become more 
professional, more highly technological, and we would welcome 
that prospect of having those employees move out into West 
Virginia, as many have moved there before and have realized the 
wild and wonderful life is a pretty good one out in West 
Virginia.
    So, with that, thank you very much, Mr. Chairman. I know 
this has been a winding road, and I join with what Senator 
Carper was saying, we need to hear the facts, and I think those 
will bear out today. Thank you so much.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    Senator Capito, let me just say I don't think we are going 
to have a disagreement here. We want the FBI to consolidate in 
its most efficient ways, and we understand that some of the 
functions may be better performed in other locations, so I am 
not sure we will have any disagreement on that particular 
point.
    Senator Barrasso, I really want to thank you. The U.S. 
Senate delegates to this Committee the responsibility for 
authorization and oversight of public buildings, and Chairman 
Barrasso has taken this responsibility at a very high level, 
which I think is very important for our Committee. So I just 
want to thank our Chairman for paying great attention to this 
and giving us an opportunity to better understand why the 
original prospectus was terminated abruptly and now we have 
before us a totally different recommendation. I thank the 
Chairman very much for this opportunity.
    Mr. Chairman, we are just puzzled. We are puzzled. We have 
gone through 12 years where the FBI, GSA, intelligence 
community have all said that the FBI needs a facility to not 
only meet its current needs, but to meet its needs in the 
future, and that requires a facility that can handle the 
personnel and the security needs that is estimated to be 
between 45 to 55 acres. That has been consistent in the report 
of 2011, in Kevin Perkins' testimony before the House of 
Representatives on March 6th, 2013, and Mr. Haley's testimony 
before us on March 1st of 2016.
    It is hard to understand how that is going to be met on a 
6.6-acre site with 2.6 million square feet. It is hard to 
understand how that is going to meet the security needs as 
determined by the Department of Homeland Security.
    Consistently there has been the issue raised about the 
security. The J. Edgar Hoover Building does not meet 
interagency security committee standards for an intelligence 
committee graded building. That is from testimony of Mr. Haley 
in August 2017. The report from the FBI in August 2011 points 
out that the Department of Homeland Security has determined 
that the FBI headquarters should be housed in an ISC Level 5 
facility.
    It then goes on to say why. The report from the GSA points 
out the reasons why this level of security is needed, and I 
would just like to put that into the record. ``Perimeter 
protection and standoff distances are the most effective means 
of preventing or limiting damage from a bomb attack. There is 
no practical way to adequately secure and protect the J. Edgar 
Hoover Building. The real risk for inadequate physical security 
is that the FBI operations are more vulnerable and could easily 
be disrupted, potentially at a time when these capabilities 
would be most needed.''
    Now, all of a sudden, we are changing the direction here. 
It is very difficult for us to understand that.
    The Chairman and the Ranking Member asked for detailed 
information about the plans. We got this glitzy 22-page, more 
photographs than details, about the proposal. And when you take 
a look at the cost comparisons, many of the costs are not even 
included in this. For a 20 percent smaller building, you don't 
include the swing rental issues or building out the new rental 
spaces.
    So, Mr. Chairman, it is difficult for us to understand 
this. Mayor Bowser has said that she believes that the best use 
of this space for the people of the District of Columbia is for 
it to be in private development hands, so we are not even 
paying attention to the local community.
    So, there are a lot of questions here. I appreciate our 
witnesses being here.
    I would just make one last comment. I know the urgency of 
this. The FBI desperately needs new facilities. But it has been 
the agencies that have delayed this for 12 years. Twelve years. 
Hundreds of millions of dollars wasted. And now we find out 
about this information through press accounts. We still don't 
have adequate information in order to move forward.
    We certainly have not delayed this, and to the men and 
women who work at the FBI, for the people of this Nation who 
depend upon their work, this has been just a major mishandling 
by the agencies for them to have adequate facilities to carry 
out their responsibility.
    Senator Barrasso. Thank you.
    Senator Van Hollen.

          OPENING STATEMENT OF HON. CHRIS VAN HOLLEN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Van Hollen. Thank you, Mr. Chairman. I want to also 
thank you and the Committee for taking this issue with the 
seriousness it deserves. This is a textbook example of how the 
Federal Government should not operate over a period of time. It 
is an example that people will use for decades to come about 
how the Federal Government misled people from start to finish, 
failed to provide information to the Congress when requested, 
and constantly changed its assessment of what was required for 
the FBI.
    People who were bidding on this project invested lots of 
money, Mr. Chairman, in proposals, only to see whiplash when 
the FBI totally changed its testimony and the GSA totally 
changed its position on this.
    There are GAO reports from years ago analyzing all the 
options, including the option that you are proposing here 
today, to demolish the current building and rebuild. There have 
been hearings in the House and Senate on this issue for years, 
and the testimony is all there on the record. I am looking 
forward, Mr. Chairman, to having a conversation and question 
for these witnesses, because representatives from the GSA and 
FBI have made statements repeatedly on the record that are 
totally at odds with the position that these agencies are 
taking today, and that is something that does not give the 
public any confidence in how their Federal Government is 
operating.
    So, I hope, Mr. Chairman, we can get to the bottom of all 
this. All of us want an FBI building that allows them to 
complete their mission and ensures their security, and is at 
the best cost for the taxpayer, and I am hopeful that we will 
arrive at a sensible solution.
    I appreciate your holding this hearing.
    Senator Barrasso. Thank you, Senator Van Hollen.
    We will now hear from our witnesses. We have with us Mr. 
Dan Mathews, who is the Commissioner of the General Services 
Administration Public Building Service, and Mr. Richard Haley, 
who is the Assistant Director and Chief Financial Officer for 
the Federal Bureau of Investigation Finance Division.
    I would like to remind you both that your full written 
testimony will be made part of the official hearing today, so 
please try to keep your statements to 5 minutes so that we may 
have time for questions. I look forward to your testimony.
    And we would ask you to please begin, Mr. Mathews.

                   STATEMENT OF DAN MATHEWS, 
           COMMISSIONER, GSA PUBLIC BUILDING SERVICE

    Mr. Mathews. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. Thank you for the 
opportunity to be here.
    The purpose of my testimony today is to explain why the 
previous procurement failed, how the recommendation changed 
from a suburban campus to a new facility on the current site, 
and why this is the preferred solution for meeting the FBI's 
mission requirements.
    Please let me be clear. This proposal does consolidate the 
FBI headquarters. It reduces its real estate footprint 
significantly and meets its mission requirements.
    Since my arrival at GSA in August, Mr. Haley and I have met 
on a regular basis with our teams to develop this proposal. 
Although I did not work at GSA at the time, I do think it is 
important to explain why the previous procurement was canceled 
in July.
    While the lack of appropriations was a significant factor, 
and I think that is where most of the discussion has taken 
place, it is not the only reason. The incorporation of an 
exchange greatly complicated and increased the risk of that 
procurement.
    Under the contract, the Federal Government was obligated to 
turn over the existing facility as partial compensation for the 
new campus. However, without full funding of the appropriated 
portion of the project, meaning the delta between the estimated 
value of the Hoover Building and the actual cost of the 
facility, that new facility could not have been completed. The 
FBI would have been unable to move, to relocate out of the 
Hoover Building, and the current site could not have been 
turned over in accordance with the contract.
    The legal and operational risks were simply too great with 
that type of a structure of the procurement to proceed without 
full funding in hand.
    Although the procurement was terminated, as you all have 
mentioned, the need and urgency for a new headquarters does 
continue. Each year delay increases the project costs by about 
$84 million by a combination of construction escalation and 
temporary investments that we need to make in the facility.
    When GSA and the FBI project team regrouped in August, we 
removed the exchange from the project and considered all 
options for bridging that gap between the project costs and the 
available funding. The first step in that process was the FBI 
reassessing the scope and mission requirements of the 
headquarters in an effort to lower costs. From a real estate 
perspective, which is what I am really going to be talking 
about today, the most important change the FBI made was in 
reducing their personnel requirement for this facility from 
10,600 to 8,300.
    We applied this smaller requirement to a campus 
construction scenario, and the total cost savings were less 
than one would typically expect. This is because the larger 
campus infrastructure costs are essentially the same for 
housing 10,600 people as they are for housing 8,300 people.
    This led to the consideration of smaller sites in an effort 
to reduce land acquisition, perimeter security, and other 
campus specific costs. Most significantly, the reduction in the 
personnel requirement made the current Pennsylvania Avenue site 
a viable option for housing the consolidated headquarters 
function.
    Again, from a real estate perspective, there are several 
distinct advantages of the current site over other potential 
locations. First of all, the current site is federally owned 
and under GSA's custody and control; demolition costs are 
considerably less than site acquisition, preparation, and 
relocation costs; a central utility plant, a new truck 
inspection facility, because there is an existing one, would 
not be needed; the classified communications, cabling, and 
major utility fees that are necessary to serve a facility like 
this already exist and are in place; the site is served by 
several Metro lines and existing road networks, eliminating the 
need for expensive parking garages and transportation 
infrastructure; and the current site is located in the center 
of the FBI's key mission partners and departmental headquarters 
across the street.
    GSA and the FBI considered three options for reusing the 
Hoover site: a phased renovation, a renovation of a fully 
vacant facility, and a demolition and rebuild at the current 
site.
    A phased renovation we determined would take almost 15 
years and cost more money and deliver a less successful product 
than demolishing and rebuilding the new structure. New 
construction allows us to build a facility that can house 8,300 
people instead of a smaller number in a renovated facility. In 
addition, new construction can mitigate security threats more 
effectively with tailored designs, newer materials, and current 
construction techniques.
    In short, demolishing the current building and replacing it 
with a new building enables GSA to deliver a more secure and 
efficient headquarters faster, cheaper, and with less risk than 
a renovation.
    As directed by the Committee, GSA and the FBI considered a 
variety of funding options, including lease construction, lease 
with a purchase option, a ground lease lease back arrangement, 
phased appropriations, and full funding appropriations, which, 
ultimately, we recommended.
    While alternatives were discussed at length, the Bipartisan 
Budget Act of 2018 provides a unique opportunity to secure 
appropriations for a new headquarters. That opportunity didn't 
exist a year ago, and I don't know if it will exist 2 years 
from now, but it does exist today.
    In conclusion, the proposal achieves a strategic 
consolidation of the FBI headquarters, reduces its footprint, 
and provides a good value for the taxpayer.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Mathews follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Mr. Mathews.
    Mr. Haley.

               STATEMENT OF RICHARD L. HALEY II, 
            ASSISTANT DIRECTOR, FBI FINANCE DIVISION

    Mr. Haley. Thank you, Chairman Barrasso, Ranking Member 
Carper. I appreciate the kind words to the men and women of the 
FBI, and I look forward to taking that message back.
    Members of the Committee, thank you for inviting me to 
testify before you today. I will be very short in my oral 
comments.
    The last time I was here we discussed the decision to 
cancel the prior procurement and difficulties presented by the 
previous exchange proposed strategy and lack of available 
funding to move forward. The Building Commissioner has gone 
into that. GSA and FBI committed at the hearing to provide you 
with a comprehensive report on the best way forward for the FBI 
project. As you are aware, that report has been provided to the 
Committee, and we appreciate the opportunity to discuss it 
today.
    During the past 6 months since we met before, we have 
reviewed all the funding options that have been available or 
that could be available and have taken a comprehensive approach 
on how best to move forward with this project.
    At the core of the review, and I can assure you, in terms 
of what the FBI's part in this review was to follow the 
criteria laid out by this Committee: one, to ensure that a way 
forward best meets the FBI's mission requirements and is in the 
best interest for the men and women of the FBI, and second, is 
a good deal for the American taxpayers, and we have not wavered 
from that commitment to look at those.
    As reflected in the report, after looking at all the 
options, and going back for more than a decade reviewing the 
lessons learned and studying the core requirements for this 
project, we, the FBI, have, in conjunction with GSA, agreed 
that reutilizing the existing headquarters site has been 
identified as the best path forward. This recommendation has 
not been provided lightly and is the culmination of a number of 
factors, and we are aware of the potential frustrations based 
on that decade-plus of moving this forward have had with a 
number of individuals, including Senator Cardin, Senator Van 
Hollen.
    First of all, in terms of us looking at it, I think most 
critical has been us relooking at and redefining what a mission 
focused, fully consolidated FBI headquarters requires. We 
strongly believe that a multi-headquarters set of sites across 
the country will enhance our resiliency and operational 
effectiveness. This is something that we have talked about to a 
number of other entities, not just in the Government, private 
sector. There are a number of private sector companies that are 
looking for resiliency through other headquarters at this time. 
That has been part of that learning process.
    These other sites that we have identified have been part of 
our physical portfolio for many years. And while the way 
forward includes enhancing the use of these sites, these sites 
are not new to the FBI; we have had a presence in Huntsville, 
Alabama, since 1971, we have had the Pocatello site since 1984, 
and our presence, as noted by the Senator a few minutes ago, we 
have been in Clarksburg since 1995. Those are all owned sites 
by the FBI that we are talking about increasing their presence 
for this resiliency and moving additional headquarters pieces 
out to those locations.
    All of that said, the FBI still requires a strong National 
Capital consolidation. While we are not talking about the 
10,600 positions coming in to the National Capital Region 
facility, we are still talking 8,300 positions. That is 3,000 
more seats than we currently have available at the Hoover 
Building and over a 50 percent growth.
    Second, and part of the piece that we really looked at hard 
within the FBI, is the day to day mission tempo. We have a 
unique relationship with the Department of Justice, which is 
across the street from us, as well as the hundreds of meetings 
that occur each day with other partners in oversight, including 
the Congress. This was a piece that had been looked at and not 
necessarily addressed in the previous plans in terms of not 
necessarily the director or executives like myself, but how do 
the men and women, the middle and lower parts of the 
organization that are all across town, how do they get back and 
forth in an effective way and get their job done. And this was 
a big part of what we have looked at for the last 6 months.
    We also do not believe we are wavering on an aggressive 
security requirement improvements. We looked at what the status 
quo is now, and it is unacceptable, and we believe we are still 
maintaining an appropriate security posture. What we give up in 
space obviously needs to be made up for in thickness of 
concrete and other security ways of getting to those same type 
of assurances that we are meeting that requirement.
    I think one of the things that is not a physical or 
necessarily a quantitative part of what we have looked at, and 
this is a conversation that we have had internally, as well as 
with GSA, is the FBI's public facing presence. We are indeed a 
part of the IC community, but we are also part of the law 
enforcement community, and we are the premier national law 
enforcement agency, and we believe a public facing FBI is 
critical, and that has gone into this factor.
    Our brethren in the IC, many of them have moved on to 
campuses not only for the security, but because they actually 
want to be out of site of the American public for much of what 
they do and the missions they have; whereas, we believe that is 
a strong tenet for us to have in terms of our presence on 
Pennsylvania Avenue.
    In closing, what remains clear in this revised strategy is 
the need for a new facility that meets the mission requirements 
for the FBI. The current J. Edgar Hoover Building is an 
impediment to achieving operational effectiveness and continues 
to decay. As noted by the Building Commissioner, these delays 
are costing over $80 million a year. Status quo is not 
acceptable. The building continues to deteriorate, and we 
estimate that it is going to cost about $300 million just to 
maintain the building at this point for just basic operations.
    Chairman Barrasso, Ranking Member Carper, Senator Cardin, 
Senator Van Hollen, I thank you for the opportunity to come 
back and testify on the new FBI headquarters project. We 
appreciate your interest and support, and I am happy to answer 
any questions you might have.
    [The prepared statement of Mr. Haley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you both very much for your 
testimony. There are a couple of questions that we will have.
    Starting with you, Mr. Mathews, the report submitted to 
this Committee indicates the revised plan costs roughly $200 
million less than the previous plan, but to me, the math 
doesn't all seem to add up. When you are considering the 
revised plan, it consolidates fewer employees into the Hoover 
location, it no longer includes a building exchange to offset 
the costs, it doesn't account for temporary employee relocation 
costs and rent space, and it asks for significantly more 
appropriations.
    Could you kind of explain this a little bit as to why this 
is actually a better deal for taxpayers?
    Mr. Mathews. Yes. I would be happy to answer the question 
about the costs. The first thing I would say, when you are 
comparing these costs to the previous project, I would say this 
Committee didn't have the full costs before, and in this 
report, this is really the first time you have seen the full 
costs of the previous project, the 10,600-person campus 
consolidation. You did not see those FBI fit out numbers.
    In fact, those are normally kept separate from the project; 
you usually just see the GSA portion of the project. You are 
actually seeing all of it here, what we think this project will 
actually cost to deliver at the best of our ability to estimate 
those costs at this point in time.
    So, I would start off by saying the comparison, that is why 
we have it in that report, the left hand side of that column, 
those are the previous costs of the canceled procurement, and 
you did not see those before. That is new and we think it is 
important that you have a full appreciation for what that 
project was costing.
    You mentioned a number of things--swing space, for 
example--that this report here shows I believe it is $427 
million for the swing space costs. And what we are showing 
there are the additional costs to fit out space for the 
temporary location. Whether we swing them out or if they were 
sitting in place in the Hoover Building, there is considerable 
expenses to operate and maintain the Hoover Building.
    Those are roughly equivalent to the rental of space cost 
for swing space, so we left those out because they are 
basically on both sides of the ledger, no matter what we are 
doing, and they cancel themselves out. The extra costs that we 
included were for building out the swing space so that they 
could occupy it. That would be above and beyond sort of the 
normal operating costs.
    Again, on reusing the current site, like I said in my 
testimony, there are some very specific advantages to reusing 
the current site. We are not building a 2.6 million square foot 
parking garage. We are not building a separate central utility 
plant, separate visitor center. In fact, when you look at the 
structure under the current proposal, we would be building 
almost 5 million gross square feet of facility. In this one we 
are building about 2.65 million gross square feet of facility.
    The acquisition costs, actually constructing it, is about a 
third of the lifecycle costs of the facility. So actually 
having a significantly smaller facility, cost-wise, over time, 
the lifecycle cost of that facility is very much tied to how 
large that facility is.
    Senator Barrasso. Thank you, Mr. Mathews. It is disturbing 
to all the members of the Committee here when you say they 
aren't costs the Committee has ever seen before. And I 
understand you weren't in this position at that point, but it 
is concerning all of us here, both sides of the aisle, when we 
hear that sort of thing, that we haven't been getting all the 
information that we, as a Committee and this Congress, have 
been requesting.
    Mr. Haley, over the course of this project, which has 
spanned now more than a decade, the FBI has consistently 
indicated the need for a fully consolidated campus. FBI further 
requested that such a facility be equipped with certain 
specifications: a remote truck inspection facility, a detached 
visitor's center, a detached central utility plant. The revised 
plan, of course, contains none of these requirements.
    Has the FBI, in a sense, lessened its security requirements 
for this project, and if so, when and why did the requirements 
change?
    Mr. Haley. Thank you, sir. We do not believe we have 
lessened our requirements. I think the learning process that we 
have gone through, and again, I will reemphasize as we have 
been pursuing the process forward, we have spent a considerable 
amount of time talking to--myself, probably 35, 40 Fortune 500 
companies. We have talked to intel community members not only 
here in the U.S., but also our partners overseas in terms of 
how best to get to all of the pieces you are talking about.
    A campus provides many opportunities, and we know that from 
some of our brethren agencies. But we also think that we can 
get those same capabilities. We have a truck inspection 
facility, a remote truck inspection facility that is in 
Maryland today that we would, in this plan, continue to use. We 
believe that we can meet the requirements of the site, as the 
Building Commissioner has mentioned. You can't take the current 
Hoover Building, obviously, and renovate it or do what would be 
needed.
    We had not, honestly, looked at a new building on that site 
before. By looking at these other locations, which was really 
driven by the resiliency, the opportunities in these other 
locations to get an expanded talented work force, a diversified 
work force, by getting that number down into that 8,000 person 
range, we believe this site can still meet the requirements 
that we have been identifying throughout this project. And 
again, that public facing piece and that operational tempo were 
two of the critical pieces then that went into that.
    Senator Barrasso. One last question before turning over to 
Senator Carper.
    Under the revised plan, the FBI is going to be forced to 
move the entire Hoover headquarters operation to temporary 
swing space locations, and it seems like it is about for 5 
years, at least the way I read this, if everything goes on 
scheduled time. Is the FBI concerned that this could hinder or 
compromise the ability to carry on its mission as an agency 
with all of this activity?
    Mr. Haley. Yes, sir. And I will be honest with you; that is 
the hardest piece of this whole thing, is how do you maintain 
that mission tempo in that period of time. And I will not tell 
you it is not going to be hard. We are looking at this as a 50-
year project, so what happens in that 5 years, and that is one 
of the conversations that we have had with GSA in terms of we 
can't take that lightly. How we are going to do that, those 
pieces that need to be close together, the mission, the 
operational pieces that have to go into that, that is some of 
the costs you are seeing in that swing space.
    What we believe, though, in the longer picture, is that if 
we can do that right, put the pencils to paper and noodle that 
correctly, we will get a longer term better option for the FBI 
at this point.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    And again, our witnesses, we are grateful to you for your 
testimony and your responses to our questions.
    Let me start, if I could, Mr. Mathews, with a question for 
you. So far, the GSA and FBI provided limited details on this 
new proposal. When can this Committee expect in-depth details 
on the proposal, not solely a 22-page PowerPoint presentation? 
When does the GSA anticipate transmitting a new prospectus?
    Mr. Mathews. I don't have a firm date on when a new 
prospectus could come, but I believe the earliest we could 
probably send one up would be later this spring or in the 
summer.
    Senator Carper. So later this spring could be May, June, or 
summer lasts until September.
    Mr. Mathews. It would be closer to the August recess, June, 
early June for spring, July.
    Senator Carper. OK.
    A question if I could, Mr. Haley, for you. This plan 
proposes to move staff into temporary swing space while the 
current Hoover building is demolished and rebuilt. There are, I 
understand, about 5,600 staff personnel who are located in the 
current facility. Is that correct?
    Mr. Haley. Yes, sir.
    Senator Carper. As I understand, the proposal does not 
include payments for rental space for temporary swing space. Is 
that correct?
    Mr. Haley. It doesn't include the rent; it includes what 
would be required to fit out the swing space, so it is the cost 
of what that swing space would require in terms of us making 
that C-grid or top secret required space; it just doesn't 
include the rent payments. As the Building Commissioner 
mentioned, the rents that we are currently paying for the 
Hoover Building through GSA and some of those costs would be 
offset by what would be going to the temporary swing space.
    Senator Carper. Would it be a wash? Are you suggesting it 
would be a wash? Because it seems to me that the rental 
payments could be actually extraordinary.
    Mr. Haley. We have some estimates on it. When we look at 
the two projects in total, and we can go through with yourself 
and your staffs the numbers, we believe in terms of what the 
project to maintain the downtown location, with all the swing 
spaces and all those other requirements, when you compare that 
total cost and things that you offset, where you are not going 
to have a parking garage, you are not going to have to run 
utilities and transportation requirements, we believe the costs 
are comparable. Again, one of our tenets to this was that it be 
a good deal to the American taxpayer, so we believe that the 
two costs, the previous plan and this plan are similar in cost. 
There are ups and downs on both of them, but we would not 
coming here, honestly, if we thought this was significantly 
more expensive, even with the swing space and that requirement.
    Senator Carper. We look forward to drilling down on that 
with you folks.
    Mr. Haley. Yes, sir.
    Senator Carper. A follow up question, if I could. Does 
temporary swing space exist that would meet the security 
requirements of the FBI? And would any new temporary swing 
space costs include necessary security upgrades? I think you 
mentioned that, but security upgrades that might need to be 
made to it?
    Mr. Haley. We have been having discussions already with 
GSA. In terms of the requirements, there are spaces that we are 
aware of that are either vacant or becoming vacant. There are 
intel community spaces that are in the region, so we are 
looking at all that. I can't tell you today exactly where that 
would be. All of them would probably require upgrades to 
security, and that goes into the costs that we have estimated. 
Our hope would be those costs that you are seeing in the report 
would come down, but those are kind of the high level 
watermarks and what we would expect.
    Our space generally for the FBI is secret level, and then 
we have a portion of our operations that are obviously in 
SCIFs, top secret. So any space we would go into that would 
meet the mission requirement would have to be brought up to 
those security requirements as well as the bollards and 
barricades in that period of time.
    Also, in that investment, the other conversation we have 
had with GSA is as we would vacate those back into the 
permanent building, that those potential sites would be able to 
be used for other tenants, so that we would not just be 
building that out for ourselves; others would be able to use 
that in the future.
    Senator Carper. OK, thanks.
    One last question for Mr. Mathews, for you. In 2016 and in 
2017 I sent four letters to GSA regarding its determination 
that the Trump Old Post Office is in compliance with the 
conflict of interest lease provisions for a Trump National 
Hotel. When GSA testified in front of this Committee in August 
I asked GSA to commit to responding to questions for 
information from any member of this Committee and was told that 
GSA would only respond to questions for information from our 
Chairman.
    I know that my colleagues on both sides of the aisle found 
that to be an entirely unacceptable position. And as I noted in 
my opening statement a few minutes earlier today, GSA did 
eventually send me roughly 11,860 pages worth of documents, but 
as I noted in my opening statement, not a single one actually 
answers the question I asked, and GSA appears to be using 
legally questionable reasons for withholding and redacting 
materials.
    So, I am going to ask the question that I asked in August 
again. Will you provide any member of this Committee the 
documents and answers that we ask for, whether it relates to 
the FBI headquarters, Trump Hotel, or any other legitimate area 
of interest?
    Yes or no, Mr. Mathews, will you do that?
    Mr. Mathews. As I said when I first arrived here, one of 
the first things I did is I met with your chief of staff to 
answer that question, would we respond to the Ranking Member. 
Absolutely, we will, and we believe we did. What I also said at 
that time is consistent with past practice in all 
Administrations, that doesn't mean we can turn everything over 
all the time, and my commitment was to turn over all the 
information that we believed we could, and if there were 
certain things that we believed we could not provide because of 
privilege or other reasons, we would clearly identify what 
those were and why we believe we were not able to turn them 
over. That is what we did.
    I know that the crux of this matter for you--one of the key 
questions was the legal interpretation, the legal advice 
between the Office of General Counsel and the contracting 
officer, and that information is internally privileged to the 
Administration, and we explained that in the letter, and that 
is why we were not able to turn that over.
    Senator Carper. I am not sure I understand that, extremely 
privileged. I am not sure I understand that at all.
    But let me just follow up, if I could, Mr. Chairman, with 
one last question.
    GSA said it had determined that the President would not 
benefit from the Trump Hotel lease while he is in office. If 
the Trump Hotel buys Trump wine the President would be 
benefiting from the Trump Hotel lease even if the lease 
proceeds were being held in a trust. So, I believe you are 
telling me that the question of whether or not the Trump Hotel 
buys Trump wine is protected by attorney-client privilege. Is 
that really what you are saying here? I just find that hard to 
believe.
    Mr. Mathews. With respect to that specific question, what 
we said was the contracting officer found the hotel in 
compliance with the terms of the lease and that the specific 
question about beneficial interests, that is the subject of, I 
think, two pending lawsuits at the moment, and we had to defer 
to the Department of Justice on that.
    Senator Carper. All right.
    Thanks, Mr. Chairman.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I thank both of our witnesses.
    Mr. Mathews, I am having a hard time accepting what you are 
saying here, so I want to be perfectly blunt about that. You 
now say a major reason for terminating the original prospectus 
was the transfer of the Hoover Building, something that you all 
wanted, and we didn't want. Congress didn't like that idea, but 
you said it was something you needed to do to get it done. So 
now we are supposed to believe that is the reason why you 
terminated it, for something that you wanted.
    Second, the consolidation, one of the major reasons for the 
consolidation on costs is to save rental costs. That is what 
you have told us all along, that it is more expensive to have 
places outside of the central location. And now you are saying 
it is a wash.
    Can you understand why I am having a hard time accepting 
the information you are presenting?
    Mr. Mathews. Yes, Senator. So, with respect to your first 
question, the issue of----
    Senator Cardin. Quickly, because we have your written 
statement on the transfer of the buildings. I agree with you on 
the transfer of the building. It didn't make sense.
    Mr. Mathews. Yes.
    Senator Cardin. But you insisted on it.
    Mr. Mathews. Well, personally, I came here in August, and I 
didn't support it.
    Senator Cardin. Your agency insisted on it. In the 
prospectus that they submitted, they insisted that this be part 
of the deal.
    Mr. Mathews. Yes, they did, and I suggest that was a 
mistake.
    Senator Cardin. And I suggest that the information you are 
giving us right now may be, likewise, a mistake.
    Mr. Haley, you have honestly told us that the disruption to 
the mission of the FBI will be a factor during this transition. 
Seven years ago we started down this path, and we haven't 
gotten to the conclusion. Do you honestly believe you are going 
to be in this new facility by 2025, when we are not going to 
get the prospectus until--at the earliest--the spring? Don't 
you recognize the FBI's mission, that if we start down this 
path, it will be another 12 years, and your mission is going to 
be compromised during that period of time?
    Mr. Haley. Sir, we definitely don't want another 12 years. 
The status quo is not acceptable. On those other sites, they 
will be owned sites; they are not leased sites. When we talk 
about a consolidation, we still believe we are getting a 
consolidation in the National Capital Region into this 
facility.
    The other facilities, the Idaho facility is being 
constructed as we talk; it is part of a larger Department of 
Justice consolidation of data centers. The CJIS facility, which 
we have been in for over 25 years, we are going through major 
renovations out there.
    Senator Cardin. I understand. My point is that you said, 
very honestly, that you have concerns about being able to carry 
out the missions as you relocate and are in various locations 
for the new umpteen years.
    Mr. Haley. Yes, sir.
    Senator Cardin. And what I am suggesting to you, make it 
two times umpteen years, because that is how this process has 
unfolded.
    Mr. Mathews, you acknowledge you are going to send us a new 
prospectus, and yet I understand there has been a request made 
that we include money in fiscal year 2018 for this project.
    You recognize that you can't proceed without Congress's 
authorization through our committees, correct?
    Mr. Mathews. Yes, that is correct.
    Senator Cardin. And if you take the same position you took 
before, unless you have every dollar appropriated, you won't 
proceed, is that correct? That was your position before for 
terminating this prospectus.
    Mr. Mathews. In order to award the contract, yes, we need 
to have the money in hand.
    Senator Cardin. All the money in hand.
    Mr. Mathews. For the contract, that is right.
    Senator Cardin. And it is a pretty big sum of money.
    Mr. Mathews. Yes, it is.
    Senator Cardin. Did you figure that into your projections, 
the realities of politics?
    Mr. Mathews. Yes, we did.
    Senator Cardin. I will just move on.
    Let me understand, Mr. Haley. If this building is rebuilt 
the way you want, 8,300 employees will go into it?
    Mr. Haley. Yes, sir.
    Senator Cardin. You have 8,300 people now to go into those 
positions?
    Mr. Haley. Yes, sir. In the Washington, DC, area we have 
over 10,000.
    Senator Cardin. So 8,300 will actually go into the 
building.
    Now, suppose the mission that you have for those 8,300 by 
the time you get into this building requires another 500, 600, 
700. Can you put them in the building?
    Mr. Haley. We believe that this multi--first of all, I 
appreciate the question, and we have looked at this. One of the 
reasons we feel comfortable about this is that we were already 
looking at Huntsville, especially, but also----
    Senator Cardin. No, my question is if you are going to 
continue the mission, you have 8,300; you have a limited sized 
facility. You have to harden it the best that you can, which is 
going to take some space.
    Mr. Haley. Yes, sir.
    Senator Cardin. You have height limits on how you can 
build.
    Mr. Haley. Yes, sir.
    Senator Cardin. I read every letter that has been sent in. 
You said you want a facility for today and tomorrow. Do you 
have a facility for tomorrow? Are you going to be able to put 
another 500 or 1,000 or 1,200 people in this to carry out the 
mission that you need in the consolidated facility?
    Mr. Haley. Yes, sir. May I answer the question? So, we have 
been looking at Huntsville and West Virginia and Idaho for a 
number of years for that specific purpose, is that we don't 
want to have a building that is at capacity the day we move in. 
So these other facilities are not facilities that we just----
    Senator Cardin. But this building will be at capacity. This 
Hoover rebuilt building will be at capacity.
    Mr. Haley. Even with the previous plan on the campus, if 
we----
    Senator Cardin. How many more people could you put in after 
construction over the 8,300?
    Mr. Haley. When the building gets done, we will still have 
the ability to put additional positions in.
    Senator Cardin. How many?
    Mr. Haley. Five hundred to 1,000.
    Senator Cardin. So the square footage that you are giving 
per employee is not accurate?
    Mr. Haley. No, sir. It----
    Senator Cardin. Well, wouldn't it be less if you put more 
people into it?
    Mr. Haley. The current building today, which only holds 
5,500, is a very inefficient building.
    Senator Cardin. The information that was presented to us 
shows us a square footage per employee. I take it that is based 
upon 8,300.
    Mr. Haley. Yes, sir.
    Senator Cardin. So now you are saying we can go up to 8,800 
or 9,300. What is the answer here?
    Mr. Mathews, what is the answer? What is the capacity of 
this building?
    Mr. Mathews. Well, if we added people, the square foot per 
person would decrease, that is right. Right now there are about 
180----
    Senator Cardin. Well, I would submit to you that you don't 
have the capacity to expand onsite, and that was one of the 
reasons you wanted 45 to 55 acres, wasn't it, so that you would 
have a facility that could meet the needs today and tomorrow?
    Mr. Haley. We are comfortable that this plan will meet the 
FBI's requirements for the next 50 years.
    Senator Cardin. OK, one more important question, if I 
might. And I appreciate the Chairman; he told me originally he 
would be a little more lenient on the clock.
    Do you disagree with GSA, Mr. Haley, where the GSA said 
that the perimeter protection and standoff setback distance are 
the most effective means of preventing or limiting damage from 
a bomb attack? Do you disagree with that?
    Mr. Haley. Setback is a very effective and probably the 
most easily way to----
    Senator Cardin. And how much of a setback are you going to 
have on this building?
    Mr. Haley. It won't be the same. It won't be the 300 or 
whatever.
    Senator Cardin. Does that concern you, for the safety of 
the people, or the attractiveness of trying to do damage 
because you don't have a setback?
    Mr. Haley. Well, starting from where we are at now, with 
status quo, this will be a significant improvement.
    Senator Cardin. I understand that, but not like a perimeter 
security that you have on a campus facility.
    Mr. Haley. Absolutely. But we believe that there are three 
ways that you can get to security----
    Senator Cardin. I understand that. I understand all about 
glass-proof windows, et cetera. But the bad guys, they want to 
do something spectacular, and when you are on the road, it 
gives temptation, does it not?
    Mr. Haley. Sir, we have looked at this, and we believe that 
we are going to get ample security, and at the same time get a 
day to day operational tempo. We are going to have that public 
facing facility----
    Senator Cardin. But not as good as you have perimeter 
security as you would at a campus facility.
    Mr. Haley. I won't argue with you, a 300-plus setback is an 
ample way----
    Senator Cardin. Of course, we are going through this now 
with our embassies, and paying a heavy price around the world 
because we listened to some people who wanted to be in a 
particular location, and now we have serious security problems 
that we are trying to correct at a high cost to the taxpayers 
of this country.
    Mr. Haley. And this facility, much of what is going into 
that security posture is based off of the embassy standards. 
You are not going to have the setback, but again, as I 
mentioned earlier, we have had conversations with a number of 
IC community partners here in the country, as well as some of 
our foreign IC partners who have similar situations who----
    Senator Cardin. But they had that situation. We are 
building that situation today.
    Mr. Haley. We are building it----
    Senator Cardin. We have a choice not to do it, and we are 
doing it if we follow this recommendation.
    Mr. Haley. Yes, sir, from a risk approach we are looking at 
it and all those other tradeoffs I mentioned in my opening 
statement and that I have repeated with the Chairman.
    Senator Cardin. So the last question I have, with the 
Chairman's indulgence, is who was in the room when this 
decision was made? I assume GSA was in the room; I assume the 
FBI was in the room. Who else was in the room that decided that 
we were going to rebuild the Hoover Building and not go to a 
campus facility?
    Mr. Haley. Sir, this is an FBI decision that we have done 
in partnership with----
    Senator Cardin. So this is your recommendation, your 
agency's recommendation? This is what you want, no outside 
influence at all, is that what you are telling me?
    Mr. Haley. Based on the status quo----
    Senator Cardin. I am asking you a simple question.
    Mr. Haley. Yes, sir, it is an FBI decision.
    Senator Cardin. I understand it is an FBI decision. I asked 
who was involved in making that decision. Solely FBI?
    Mr. Haley. FBI and GSA have brought this. This has always 
been about what is----
    Senator Cardin. No input from any other agencies? No input 
from the White House? This was strictly the two of you, two 
agencies, is that what you are telling us?
    Mr. Haley. GSA----
    Senator Cardin. It is a simple answer.
    Mr. Haley. Yes. This is an FBI decision that we----
    Senator Cardin. I know it is an FBI decision. I am asking 
who else was involved in making that decision.
    Mr. Haley. In the decision that I have been a part of, and 
our newest Building Commissioner, who we have worked with very 
well following the last hearing, I have to say the relationship 
we have with GSA since Mr. Mathews has got there is better than 
it has ever been in my 25 years.
    Senator Cardin. I asked a pretty simple question.
    Mr. Haley. And I believe I gave you an answer, sir.
    Senator Cardin. No input at all from the White House?
    Mr. Haley. This decision is not----
    Senator Cardin. No input from the White House?
    Mr. Haley. This decision----
    Senator Cardin. No input from the White House? Yes or no?
    Mr. Haley. Not on this decision, no.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    I think you can both understand why we are having major 
whiplash up here, given the long history of positions that both 
your agencies have taken on this project.
    Mr. Haley, are you familiar with the GAO report that was 
written back in November 2011 about this project?
    Mr. Haley. Yes, sir.
    Senator Van Hollen. And as part of that, they looked at the 
demolish and rebuild option, did they not?
    Mr. Haley. I believe that was one of the pieces that they 
did look at.
    Senator Van Hollen. That is right. That was option two, 
alternative No. 2. And it said that this was not a preferred 
option because the FBI's security concerns about its 
headquarters would remain.
    Your testimony today is that rebuilding at the current 
location would be less secure for the FBI than moving to one of 
the other campus sites, isn't that correct?
    Mr. Haley. I think my testimony today and what I have said 
in the opening is that we have looked at a number of factors 
that were not necessarily----
    Senator Van Hollen. I am just trying to get confirmation to 
what you said within the last 5 minutes. You just told Senator 
Cardin that those other campus sites would provide more 
security. Isn't that true?
    Mr. Haley. So that a 300-foot setback----
    Senator Van Hollen. Isn't it true that the other sites 
would provide more security than relocating at the current 
site?
    Mr. Haley. I wouldn't say----
    Senator Van Hollen. Yes or no?
    Mr. Haley. I wouldn't say more security. From a setback 
standpoint, yes, sir, the setback would provide for that aspect 
of security. There's multiple processes of the security 
protocols. There are other ways of getting to some of those 
same security outputs. But yes, you are correct, a 300-foot 
setback is intuitively better than a 75-foot setback, yes, sir.
    Senator Van Hollen. I would suggest it is not just 
intuitively; that is according to the facts and the experts.
    Are you familiar with Mr. Kevin Perkins?
    Mr. Haley. Yes, know him very well.
    Senator Van Hollen. Yes.
    Mr. Haley. He was the SAC in Baltimore, Maryland.
    Senator Van Hollen. That is right. And he was Associate 
Deputy Director of the FBI, correct?
    Mr. Haley. Yes, sir.
    Senator Van Hollen. OK. And he testified, Mr. Chairman, 
back in March 2013, at a hearing in the House of the 
Transportation and Infrastructure Committee, and here is what 
he said: ``But the security concerns are significant for us, 
especially as we are where we are located at the current time, 
which is probably the worst of all the agencies in the 
intelligence community.''
    Do you agree with that statement from your fellow FBI 
representative?
    Mr. Haley. I believe he was talking about the current 
building, and yes, the status quo today is not acceptable.
    Senator Van Hollen. Well, he was referring to the current 
location. Do you want me to read it again? Do you agree that 
the current location of the FBI building ``is probably the 
worst of all the agencies in the intelligence community,'' from 
a security standpoint?
    Mr. Haley. You are quoting what he said?
    Senator Van Hollen. Yes, I am.
    Mr. Haley. I acknowledge that that is what----
    Senator Van Hollen. Has the FBI changed its position on 
that fact?
    Mr. Haley. We believe that the site at Pennsylvania Avenue, 
with the right construction, protocols, and the other mission 
requirements can be secured in an appropriate way.
    Senator Van Hollen. In an appropriate way, but clearly not 
as secure as the others, which is so obvious, and you have said 
it already, but I think it is important for the record here.
    We have also had testimony over the years from GSA, Mr. 
Mathews. Dorothy Robyn, did she have the position you currently 
have?
    Mr. Mathews. Yes, that is correct, Senator.
    Senator Van Hollen. That is right. And she also testified 
at that March 13th hearing of the Transportation and 
Infrastructure Committee and she indicated, and I quote, ``The 
building, with its high profile location and limited perimeter 
setback, cannot meet and will not meet, cannot meet and does 
not meet the FBI's requirements for level 5 security under the 
Interagency Security Committee standards.''
    Have you changed your position, has the GSA changed its 
position on that?
    Mr. Mathews. She was correct, the current building could 
not meet that.
    Senator Van Hollen. Here is what she says. She says, ``With 
its high profile location and limited perimeter setback.'' It 
still has a limited perimeter setback; we just heard that, 
right?
    Mr. Mathews. Yes, but it is connected to the building, and 
that current building cannot withstand--well, the current 
building has very significant limitations.
    Senator Van Hollen. Well, as I mentioned, Mr. Chairman, we 
have looked at the demolish option in the past.
    Mr. Haley, when the GSA decided that it would not go 
forward with the original options, that is when the FBI decided 
to take another look at its mission requirements, right?
    Mr. Haley. Absolutely, yes, sir.
    Senator Van Hollen. And prior to that, you were fully 
prepared to go forward with the other options, isn't that 
right?
    Mr. Haley. Yes, sir. If the funding would have been 
provided in the previous procurement, we would have a 
construction site most likely going on right now; yes, sir.
    Senator Van Hollen. All right. Well, I want to get to that 
point because I think it is really important, the funding. Did 
the GSA and FBI request funding for this project as part of the 
previous Administration's budget request?
    Mr. Mathews. Yes, it did.
    Senator Van Hollen. How much did it request?
    Mr. Mathews. I believe the combination was--the last 
request was, I think, 700-some million dollars.
    Senator Van Hollen. It didn't request full funding, did it?
    Mr. Mathews. It wasn't enough, no.
    Senator Van Hollen. Right. So the Administration's position 
at the time was we want to move forward with these other 
options, but we are not going to provide full funding. But now 
it is because, supposedly, Congress didn't provide full 
funding. The Congress actually provided more funding than the 
Administration requested, didn't they?
    Mr. Haley. Well, in the previous request, with the exchange 
included, the funding that was being asked for, if it would 
have been appropriated, would have allowed the project to move 
forward.
    Senator Van Hollen. OK. Let me just say at the time of the 
decision last July, Mr. Chairman, where the GSA decided to pull 
the plug on the other options, the statement from GSA, from Mr. 
Michael Gelber, stated, and I quote, ``It's fair to say that 
the cancellation of the procurement was not the desired 
outcome.''
    Does that remain the position of the FBI, that that was not 
the desired outcome, the cancellation of the original?
    Mr. Haley. Well, in Senator Cardin's point, the longer that 
this project doesn't move forward is the longer we are in this 
disruptive state, yes, sir. So, just to clarify, the funding 
that was being asked for in the previous Administration's 
budget request, along with the exchange, was the amount needed, 
$1.4 million with the exchange, to move forward. Only $500 
million was provided. So, it was because of that and the fact 
that that procurement was going beyond its original expected 
time period.
    There were considerations in that contract that if the FBI 
wasn't out of the building at a certain point, we were going to 
be paying penalties back. There were costs that were included. 
The teams that the different construction entities were putting 
together, all of that, as it was aging, was making that 
procurement ineffective. So, without the funding, the FBI 
agreed with GSA's consideration that the contract needed to be 
canceled.
    But you are absolutely right, if that project would have 
moved forward, we would be building at one of the three sites 
today, most likely. The Committee--and in good faith, when we 
came up here before, and what we have done in the interim, is 
go back and look at everything involved in this project; not 
just the brick and mortar, definitely the security, but we have 
also looked at all the operational pieces as well, and that is 
where we are coming forward today.
    Senator Van Hollen. I understand. Just because time is 
limited, you mentioned security. It is very clear that this is 
obviously a less secure facility.
    And I was--Mr. Mathews, I have to say, a little amused by 
your referencing the bipartisan budget agreement as the path 
forward for additional funding. That budget agreement was 
reached here on the Hill after you had already made your 
decisions to move forward, right? I mean, that was just a 
couple weeks ago. Isn't that the case?
    Mr. Mathews. Actually, the final recommendation came 
forward at that same time.
    Senator Van Hollen. But if it is a funding issue, which is 
what the testimony was with respect to the decision, Mr. 
Chairman, to not move forward, given the bipartisan budget 
agreement, I would suggest that we now can look at the funding 
for the original project, which would have gone through at one 
of the other three facilities and met what the FBI has told us 
for years would meet its mission requirements.
    The last question I have, Mr. Chairman, has to do with the 
swing space rental payments. I am really confused about this. 
You are in a current building; you are paying some rental 
payments now, I don't know how much, and now you are going to 
move for a period of 5 to 6 years to other locations, we don't 
know where right now, and you have not included the costs. This 
PowerPoint specifically says you have not included the costs of 
those rental payments. Can you get back to this Committee, 
please, and give us what the costs of those rental payments 
will be? Because a lot of people who have looked at this 
believe those dramatically change your cost assessments.
    Mr. Mathews. Yes, we would be happy to get back to you with 
those additional figures.
    What I was trying to say, explain earlier, is there is a 
cost of currently occupying the Hoover Building. Under this 
scenario, they would move out. Those costs would end; they 
would terminate because we would demolish the building.
    So we wouldn't be paying to operate and maintain the Hoover 
Building, and that is what I am suggesting is offsetting the 
base rental payments for the swing space. But to occupy a swing 
space, as Mr. Haley said, we would have to bring that up to the 
standards, and that is the $479 million that is detailed here.
    Senator Van Hollen. You have the rental payments.
    Mr. Chairman, if I could one last.
    Senator Cardin asked you a little bit about this, but Mr. 
Mathews, have you had conversations with the director of OMB 
about this project, Mr. Mulvaney?
    Mr. Mathews. I have not, but this is part of the budget 
submission of the Administration, so this is absolutely 
supported by OMB. The funding request was part of that fiscal 
year 2018 additional request that was put forward, so this is 
an official budget request; it has the approval of the OMB----
    Senator Van Hollen. Are either of you gentlemen--are either 
of you familiar with any conversations that any members of your 
agency have had with the President of the United States about 
this decision with respect to the FBI building? And I mean the 
decision to not move forward with the original alternatives and 
the decision to remain at the current location. Are you aware 
of any conversations that anybody in the Administration has had 
with the President of the United States about this project?
    Mr. Mathews. Again, this was a joint decision----
    Senator Van Hollen. That is just yes or no. Are you aware 
of any conversations had by any member of the Administration 
with the President of the United States about this project?
    Mr. Haley. What I would say----
    Senator Van Hollen. That is a yes or no.
    Mr. Haley. I don't think it is, sir.
    Senator Van Hollen. It is.
    Mr. Chairman, I think the Committee deserves an answer to 
that question. It is a yes or no question whether people are 
aware of any conversations that anyone in the Administration 
has had with the President about this project.
    Mr. Haley. I was going to try to answer it. With respect to 
the decision of staying in the downtown location, this 
decision, and any conversations that have happened with that 
decision, and the Building Commissioner and I have had summary 
conversations at the worker level of OMB on what this decision 
is; we obviously didn't come out here without a coordination 
with our OMB oversight, but with respect to the decision of 
staying at 935 Pennsylvania Avenue, tearing down the current 
building and building back, that is an FBI driven decision, in 
coordination with GSA.
    I am not aware, in terms of that decision, regardless of 
whether it has come up in any other venue, the decision to stay 
at 935 Pennsylvania Avenue is an FBI decision, and we have had 
that conversation with GSA. Any entities outside of the FBI and 
GSA, whether they have been informed about it, whether it has 
come up in conversations, it hasn't been a factor in the 
decision of that project.
    Senator Van Hollen. That was not my question. My question 
was not whether any conversations had with other people outside 
the FBI were a factor. My question is very simple: Are you 
aware of any conversations or communications that any member of 
the Administration has had with the President of the United 
States about the project?
    Mr. Haley. I can't speak for the Building Commissioner. I 
have not been a part of any of those conversations.
    Senator Van Hollen. I didn't ask that. I didn't ask whether 
you have been a part of that. I understand that you were not 
talking to the President of the United States about this. I am 
asking about whether you are aware of any conversations that 
anyone in the Administration had with the President of the 
United States about this project, meaning either the decision 
not to go forward with the original plan or the current 
alternative.
    Mr. Haley. I don't believe I am in a position to answer 
that question because I was not privy to those conversations. I 
have not been part of those conversations.
    Senator Van Hollen. That is not my question. My question is 
not whether you know the content. My question is whether you 
were aware of any conversations having been had.
    Mr. Haley. I don't believe I am in a position to answer 
that question.
    Senator Van Hollen. Mr. Chairman, I would hope--I mean, 
this is a Committee that is trying to take its responsibilities 
of oversight seriously. This is a legitimate question for the 
public.
    Senator Barrasso. And I think that the witnesses have tried 
to answer to the best of their abilities, and the question has 
been asked and answered a number of times.
    Senator Van Hollen. Mr. Mathews, the same question to you.
    Mr. Mathews. Same answer, Senator.
    Senator Van Hollen. OK. Just for the record, neither 
witness has answered the question, Mr. Chairman. I think it is 
pretty clear from the record.
    Senator Barrasso. We will head to a second round if people 
have additional questions.
    Let me just ask one.
    Mr. Mathews, GSA indicates the total cost of the project 
under the revised plan is $3.3 billion. The plan assumes the 
entire project is going to take 5 years, and these employees 
will be able to return to the new headquarters within that 
timeframe, relocation, demolition, new construction, to get 
back to the new headquarters.
    My experience has been projects take longer and cost more 
than predictions are. Do you really believe that we can 
complete the entire project in this budget in 5 years?
    Mr. Mathews. I believe it is possible if we have the 
funding. This will be done as a maximum price contract. A lot 
of the unknowns that are typical with construction projects, 
given that this is an existing site, we know this site, we know 
the demolition costs, those came forward in the previous 
procurement.
    We had a variety of estimates for that, so we feel pretty 
good and confident about those estimates. Again, we know that 
site, we control the site, so a lot of those types of things 
that come into play that can hold up a project at the initial 
phases really aren't present here.
    But again, it comes down to funding. If we have the 
funding, and we would need to have the funding in hand for the 
design and construction portion of the contract in order to 
award a contract. This would not lend itself to a phased 
approach. We can't build a foundation and then wait for money 
and then build the next piece; we would have to have the design 
and construction component of it up front.
    But if we have that in hand, we should be able to meet this 
project. The key would be to make sure that we avoid change 
orders. As with any large project, we need to make a plan, what 
we are going to build, and stick to it and not change it 
midway, once we start.
    Senator Barrasso. Avoid change orders. For any of us that 
have had involvement in any kind of remodeling project, whether 
it is just a home building project----
    Mr. Mathews. Yes. It is the bane of cost control.
    Senator Barrasso. Senator Carper. If not, or Senator 
Cardin, whichever.
    Senator Carper. I am interested in the truth. I think that 
is what is expected of you; it is what is expected of us. 
Sometimes my colleagues hear me quote Thomas Jefferson: ``If 
the people know the truth, they won't make a mistake.'' And I 
think the question that Senator Van Hollen has posed is not an 
easy question, not an easy question maybe to answer.
    Chris, would you just state once again the question that 
you have asked both witnesses?
    Senator Van Hollen. Yes, Senator Carper. The question was 
pretty straightforward: whether either of these gentlemen are 
aware of any conversations that took place between any member 
of the Administration and the President of the United States 
about this FBI project, meaning the decision not to move 
forward with the original alternatives or the decision to 
rebuild at the current site.
    Are you aware of any? I am not asking if you were in the 
room; I am not asking you for the content; I am asking whether 
you are aware whether any such conversations took place.
    Senator Carper. And I am not a big fan of yes or no 
questions and answers, but this really is one, and we would 
like for you to tell us the truth.
    Mr. Haley. Sir, I am the Chief Financial Officer and Head 
of Facilities for the FBI. I have meetings with all types of 
people in the Department of Justice, at OMB and other places. 
When the question is presented as am I aware of anybody in the 
Administration that has talked----
    Senator Carper. No, that was not the question. That was not 
the question. With all due respect, Mr. Haley, that was not the 
question. It is a pretty straightforward question, and I think 
it deserves a straightforward answer.
    Mr. Haley. I think I have answered it as best I can.
    Senator Carper. Mr. Mathews, have you answered that 
question as best you can?
    Mr. Mathews. My answer is I am not in a position to answer 
that question.
    Senator Carper. Well, the ways you have responded to that 
question certainly raise for me, and I suspect for a number of 
my colleagues, the question whether the President did somehow 
intervene and express a view. The way that you are answering it 
simply encourages suspicion.
    Mr. Haley. I am not trying to bring suspicion on whether 
there was--I have tried to be, at least from an FBI 
perspective, very explicit on whether there was any intervening 
from the Administration or the White House, and when I tell you 
that the FBI has come to this decision and we would not be 
putting forward a decision, and I say this with emphasis from 
our leadership, we would not be putting forward, nor would we 
be agreeing to an approach that did not meet the FBI's mission 
requirements, so----
    Senator Carper. Let me just say this. If the President did 
not intervene in some way, and you are aware that he did not 
intervene in any way, just say that. Just say that, and this 
suspicion just goes away. But your inability to say that, or 
refusal to say that, simply heightens, heightens that 
suspicion, and that is not a good thing for anybody.
    OK, my time has expired. I will have some questions for the 
record. Thank you both for being here.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Cardin. I just want to underscore the point that 
Senator Van Hollen made in regards to the congressional 
appropriations on the original project.
    Mr. Mathews, you have indicated there were two reasons for 
the termination of the original contract: one, you didn't like 
the Hoover Building exchange, which was the Administration's 
proposal, not ours. We didn't like it. We gave you a lot of 
different options to pay for it. Second is you didn't have all 
the money in hand, and yet you never asked for all the money in 
hand from Congress.
    We gave you more money than you asked for. So, I just want 
the public to understand and the FBI to understand we should be 
breaking ground today but for the Administration. But for the 
Administration, we should be breaking ground today in Virginia 
or Maryland, and you would get the type of facility you need a 
lot faster; you would be able to carry out your mission. I am 
going to tell you it is going to be less costly and a very 
valuable piece of property ultimately would find its way into 
helping the people of the District of Columbia.
    Second point I want to follow up on, because I agree with 
Senator Van Hollen, I don't understand the math here; you have 
been telling us consistently that it is better to use 
Government facilities for costs than outside rental facilities 
for costs. Now we are being told it is a wash.
    And then I am looking at the bookkeeping here, where you 
are being charged internally for the costs of the Hoover 
Building, and you are telling us that that is going to be a 
wash, but it doesn't seem like it is going to be a wash for the 
taxpayers of this country, and they are the people we 
represent. It does seem like there is going to be an additional 
cost.
    Now, I want to tell you we did some of our own analysis on 
this with our economic development people, and admittedly, we 
don't have the information you have. And the number we came up 
with is about $1.2 billion additional cost because of the swing 
space. And if that is accurate, or even half-accurate, then we 
are spending a lot more to rebuild the Hoover Building with, I 
would suggest, less results for the FBI certainly today, and 
very concerned about the future expansion and needs of the FBI, 
because you are going to be really restricted in the rebuilding 
of the Hoover Building.
    So, if I could just make that one request that the Chairman 
made and the Ranking Member earlier, I hope, before you send us 
a prospectus for our consideration, that we have all of the 
detailed information available to us. The one thing you said, 
Mr. Mathews, that really concerned me is that we didn't know 
all the costs. Was it our responsibility to try to find out all 
the costs? I thought that is your responsibility. So why didn't 
Congress have that information originally?
    Mr. Mathews. I can't speak for the previous Administration, 
why they didn't provide it, but I can say that we are providing 
it, and we are giving you a complete----
    Senator Cardin. Well, you are not providing it right now 
because you are not giving us the swing space comparisons. We 
need a lot more information you have given us; don't you agree?
    Mr. Mathews. We will give you more information on the swing 
space, but at this point in time we have given you what we 
have. And with respect to your question about long term 
leasing, short term leasing makes a lot of financial sense for 
the Government; long term, for 30 years for a requirement to 
house out in a single lease location, that is where we start 
getting into some cost issues, but for temporary requirements, 
rental space is a great solution.
    Senator Cardin. So we should take our Government buildings 
and take short term leases rather than having people in our 
buildings?
    Mr. Mathews. Well, of course, this would be replaced with a 
Government owned, Government constructed facility.
    Senator Cardin. I understand.
    Mr. Mathews. This is temporary housing.
    Senator Cardin. What you are saying defies logic. What you 
are saying is that the FBI can save money if it starts taking 
its employees out of the Hoover Building and putting them into 
temporary short term leases. Doesn't make sense.
    Mr. Mathews. Well, we looked at renovating the facility 
with them in place, and that makes far less sense.
    Senator Cardin. Right.
    Mr. Haley. To clarify, in terms of what was in the report, 
and we definitely will get back to you, the swing space amounts 
that you are seeing in the report are those above standard, 
secure pieces that we believe that the rent costs--and we still 
are going to pursue, whether it is in the Government inventory, 
the intel community has space that we are aware of, whether 
that meets our mission needs, that would offset some of the 
rent.
    But the only piece that we don't believe that is in the 
report right now is the actual, what that final rent payment. 
And what the Building Commissioner articulated earlier, to just 
clarify, is we think that will be an offset to what we are 
currently paying.
    There is no question to your point that there may be, in 
that interim period, that 4 or 5 years, where we will be paying 
some marginal amount more for that temporary space, but then in 
the longer picture, when we get back into the owned facility, 
we think that is a better place to be.
    So you are correct that there could be a marginal amount 
different in the rent. But for the most part, we think that 
that piece, that widget, is going to be offset with what we are 
already paying.
    Senator Cardin. And I would hope you would give us the 
analysis on the Hoover Building getting less cost reimbursement 
from GSA that has to be made up someplace else by Federal 
taxpayers.
    Thank you.
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    And just for Mr. Mathews, have you ever had any 
conversation or communication with either the President of the 
United States or any senior White House staff about this FBI 
project?
    Mr. Mathews. I have not.
    [The additional response of Mr. Mathews follows:]

    I write to clarify my response to a question posed by 
Senator Van Hollen near the end of the hearing. Specifically, 
the Senator asked me: ``Have you ever had any conversations or 
communications with the President or any senior White House 
staff about this FBI project?'' During the hearing, I misheard 
the question and believed the question was only referring to 
conversations or communications with the President. I responded 
by saying: ``No, I have not.'' Since my response was intended 
only to reflect whether I have had conversations or 
communications with the President regarding the FBI 
headquarters project--not senior staff--I believe it is 
appropriate for me to further clarify and extend my response to 
the Senator's question.
    As such, I would first restate that I have not had any 
conversations or communications with the President regarding 
the FBI headquarters project. However, I have attended one 
meeting with a senior official at the White House where the 
primary topic of the meeting was the FBI headquarters project. 
Additionally, I attended one meeting with a senior official at 
the White House where the FBI headquarters project was 
discussed briefly as a matter incidental to the subject of the 
meeting, and I have had several meetings with another senior 
White House official where the FBI headquarters project was 
discussed, but only in the context of a broader discussion of 
Federal real property acquisition financing.

    Senator Van Hollen. Mr. Chairman, I would just ask if I 
could put into the record some of the documents I cited during 
my questioning, as well as a Washington Post column discussing 
the President's interest in keeping the FBI building in its 
current site as potential financial interest.
    Senator Barrasso. Without objection.
    Senator Van Hollen. Thank you.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I would just say, this is a FBI decision. 
It is in the President's budget, so one would expect an 
Administration to have interest in the final decision of how 
the budgeting process is made.
    Just in conclusion, is there anything that either of you 
would like to offer in clarifying or things that you would like 
to have mentioned that you didn't have an opportunity to do 
today?
    Mr. Haley. Just two points on that last one. I am not 
trying to not answer the questions with respect to Senators, 
but on your last point there, not saying something in terms of 
whatever those conversations, if they did occur, might have 
said, what I can tell you is, to reiterate, this was an FBI-
centric decision, in coordination with GSA.
    The one thing I would mention, just to clarify on something 
that was brought up earlier in terms of that 5 year--5 to 6 
year for this particular site, one of the challenges in 
comparison to the other three sites previously, the amount of 
road work and the amount of infrastructure that had to be done 
even to get to the construction of the site, when we offset the 
two time periods, that is where we do believe that this site, 
because we do own it, we can tear it down, build it back, even 
though that 5 years is going to be an inconvenience.
    I will be honest with you, as I said, sir, that will be a 
hard period for us to figure out, but we do believe that that 
is workable and that that is some of the comparison that we get 
to the two. So I just wanted to clarify that.
    Senator Barrasso. And Mr. Mathews, anything else you would 
like to offer for clarification?
    Mr. Mathews. I guess I would just say that I understand it 
is a significant change from the previous request, but with 
respect to the site, what really makes it possible to consider 
the site, is the smaller requirement for the number of 
personnel. That makes it possible, and there are, again, as I 
mentioned, some very distinct advantages to reutilizing the 
current site if you can actually fit the housing requirement on 
that site.
    Senator Barrasso. Well, I want to thank both of you for 
your time and your testimony today. The hearing record will 
remain open. There may be some additional written questions 
from some of the other members. I want to thank you for your 
testimony on this important hearing, and the hearing is 
adjourned.
    Senator Carper. Before you adjourn, I just want to say 
thank you for holding this hearing, thank you for being so 
intelligent, especially with our colleagues from Maryland. It 
is obviously an important issue for them and for the District 
of Columbia and for our neighboring States, certainly for the 
FBI and the folks that work there. But you have been, I think, 
extraordinarily gracious, and I just want to note that and say 
thank you.
    Senator Barrasso. It is good to work with you.
    Thank you very much. Hearing is adjourned.
    [Whereupon, at 11:32 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
